mwe.com
Paul W. Hughes
Attorney at Law
phughes@mwe.com
+1 202 756 8981

September 13, 2021
BY HAND DELIVERY
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

San Diego County, California et al., v. Ana Sandoval
No. 21-264

Dear Mr. Harris:
I represent respondents in the above-captioned case. The brief in opposition is currently due on
September 23, 2021.
Good cause exists for an extension of time to prepare the brief in opposition. I have several other
matters with proximate due dates. Further, we recently received notice of a proposed amicus
brief.
I therefore respectfully request a 30-day extension, rendering the brief in opposition due on
October 25, 2021.
Thank you for your assistance.

_______________________
Paul W. Hughes

cc: counsel for petitioners

500 North Capitol Street, NW Washington DC 20001-1531 Tel +1 202 756 8000 Fax +1 202 756 8087
US practice conducted through McDermott Will & Emery LLP.

